TN

@OCKLE

2311 Douglas Street L ega l Br ie fs E-Mail Address:

Omaha, Nebraska 68102-1214 Est, 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-273
MICHAEL BINDAY,
Petitioner,

v.
UNITED STATES OF AMERICA,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 17th day of January, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the REPLY BRIEF in the above entitled case. All parties required to be
served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
DAVID W. SHAPIRO
THE NORTON LAW FIRM LLP
299 Third St.
Suite 106
Oakland, CA 94607
510-906-4900
dshapiro@nortonlaw.com
Counsel for Petitioner

Subscribed and sworn to before me this 17th day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

eee, » EC Clit Qudeow bh, Elly

My Commission Expires Nov 24, 2020

 

Notary Public Affiant 39316
SERVICE LIST

NOEL J. FRANCISCO
Solicitor General

Counsel of Record
BRIAN A. BENCZKOWSKI
Assistant Attorney General
ANN O’CONNELL ADAMS
Attorney
U.S. Department of Justice
950 Pennsylvania Ave. NW
Room 5616
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217
